No.

IN THE

Supreme Court of the United States
OCTOBER TERM 2020
_____________
DAKOTA MANUCY CONSTANTIN,
Petitioner,
v.
FLORIDA,
Respondent.
____________

PROOF OF SERVICE

I, WILLIAM M. KENT, do declare that on this date, January 28, 2021, pursuant
to Supreme Court Rules 29.3 and 29.4, I have served the attached PETITION FOR
WRIT OF CERTIORARI with attached Motion to Proceed In Forma Pauperis on
each party to the above proceeding, or that party's counsel, and on every other person
required to be served by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class

postage prepaid.
Dakota Constantin
DC# W90167
Lake City Correctional
7906 East Highway 90
Lake City, Florida 32055
Office of the Attorney General
444 Seabreeze Blvd.
Fifth Floor
Daytona Beach, FL 32118

s/William Mallory Kent
AFFIANT

